<html>
<title> - WATER AS A GEOPOLITICAL THREAT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                     WATER AS A GEOPOLITICAL THREAT

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 16, 2014

                               __________

                           Serial No. 113-127

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

86-300PDF                 WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jeremy M. Sharp, Specialist in Middle Eastern Affairs, 
  Foreign Affairs, Defense, and Trade Division, Congressional 
  Research Service...............................................     7
Ms. Maura Moynihan, author & activist............................    13
Mr. Gordon G. Chang, author......................................    56
Mr. David Goodtree, co-chair and founder, Symposium on Water 
  Innovation.....................................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jeremy M. Sharp: Prepared statement..........................    10
Ms. Maura Moynihan: Prepared statement...........................    18
Mr. Gordon G. Chang: Prepared statement..........................    58
Mr. David Goodtree: Prepared statement...........................    64

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83

 
                     WATER AS A GEOPOLITICAL THREAT

                              ----------                              


                       THURSDAY, JANUARY 16, 2014

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Good morning. This is the Subcommittee on 
Europe, Eurasia, and Emerging Threats and we are now in 
session. And I would first and foremost like to ask my 
colleagues, with unanimous consent, that Mr. Blumenauer, who 
has spent such considerable time and effort on this issue of 
water and the importance of it and world affairs today, and 
then the standard of living of our people, that he be permitted 
to participate on the same status as any other member of the 
committee. Hearing no objection, so ordered.
    It is the Chair's intention to have a short opening 
statement. The ranking member will have an opening statement. 
And I will give also time to Mr. Blumenaurer, as well as our 
other members, for short opening statements.
    So good morning. The subcommittee has convened and we 
welcome our witnesses today as part of our emerging threats 
which is--that is within the title in our portfolio. We examine 
the topic of water as a strategic resource and its potential 
use as a threat. Those of us who have lived around water our 
whole lives may be unaware of how water may be manipulated 
maliciously for both material gain and for political coercion. 
Although in our country's history, I think it is very clear 
that there were water wars and people in conflict or people in 
great accomplishments of people working together, that our 
country's history is filled with focusing on the issue of 
water.
    Our witnesses today made clear such conduct is routine when 
it comes to countries like Communist China that routine conduct 
is manipulation of water for power's sake. As our witness 
today, Gordon Chang will explain, China's illegal occupation of 
Tibet puts it in control of the roof of the world and thus, the 
headwaters that service half the world's population. We could 
be confident that resulting water disputes would be handled 
responsibly and reasonably, perhaps solved in international 
forums or in agreements like many other countries do, if that 
is we could be confident in that if China were a country that 
wasn't the world's worst human rights abuser that has had no 
political reform whatsoever in these last 20 years when we have 
seen such incredible reform in other and former communist 
countries.
    Our Congressional Research Service testimony makes clear 
that most of these matters in terms of water are resolved 
through negotiations and peaceably and I might say remarkably 
these issues are solved by people acting responsibly and 
providing leadership and reaching out to people and to find 
solutions. Some of the 300 agreements over the last 70 years 
have unfolded in that way. Today, a warning alarm is sounding 
about China's control of such water resources because we have 
seen that China, even in the last few months, is not so 
reasonable when it is making its territorial claims.
    China isn't the only flash point for the water issue, 
however, and water controversies are nothing new. Water is a 
volatile issue in the Middle East today, for example, but let 
us take a look. If you read the history, water played a very 
significant role in, for example, creating the environment that 
led to the Six Day War back in 1967. Basically, that conflict 
began when the Syrian Government decided to dam up waters that 
were flowing into Israel followed by an Israeli air attack 
which destroyed those dams. Then Egypt and other Arab neighbors 
were called into the conflict and it almost led to a superpower 
confrontation which would have been a disaster for the whole 
planet. And that all began with what, a water controversy over 
how much water was going to be flowing into Israel and the 
attempt by Syria to dam up that water.
    Today, there are heartening signs, however, of cooperation 
in that same region between otherwise adversarial parties. The 
Red Sea to Dead Sea canal project is one that has potential of 
supplying water to Jordan, a country suffering from extreme 
water scarcity. Last month, Israel and Jordan and the 
Palestinian Authority, signed an agreement setting the path for 
a Red to Dead canal that would allow a desalinization plant in 
Aqaba, Jordan. Israel agreed to increase its fresh water that 
it sends to Jordan from the Sea of Galilee and the Palestinians 
will be able to buy cheaper water from Israel. It seems like a 
very good deal all the way around, but let me note it took a 
long time and a lot of serious negotiations and a lot of 
sincerity on both sides, or all three sides of that negotiating 
table, to reach that agreement.
    And let me just note one of the first assignments, and many 
people know that I was a speech writer for President Reagan, 
and my first assignment was to welcome and work with the 
President on his welcoming remarks for President Hussein, King 
Hussein of Jordan. And King Hussein of Jordan was the first 
visit to the Reagan White House, the first official visit. And 
I was supposed to work for the President on welcoming remarks 
and that was the first remarks that I have ever written for a 
President of the United States, I might add, or anybody else.
    And the State Department sent me over a stack of things to 
look at, like that, and their sample of what they would want 
the President to say which I, of course, discarded immediately. 
But I studied everything that was in front of me, and there was 
one piece of paper in that big stack of papers of things to 
look at that jumped out at me. And it was that there were 
negotiations going on about the Red Sea to Dead Sea project 
that had just started at that time which was 1981 and so I 
looked at this and I said this is really a significant thing, 
that we have people who are politically so separated who are 
willing to sit down at a table because of how important water 
is and work together to try and find a solution. Perhaps we can 
use this as an example of the type of cooperation we should 
encourage.
    And so I decided I was going to write that into the 
President's speech myself. And I had no idea that I could when 
I was hired on as a speechwriter that I would have this type of 
personal contact with the President of the United States. And 
it finally dawned on me when they said well, sure if you have 
got a good idea put it in there and we will see what the 
President says. And of course, he liked it very much and it was 
part of his welcoming remarks. But at that point, I really 
found out I had a pretty good job after all.
    We can take a look at what has happened, however. It has 
taken all of these years to come to an agreement. And I will 
say this, we should all encourage this process between Jordan, 
the Palestinians, and the Israelis because it might take long, 
but it is symbolic, as Ronald Reagan noted in his welcoming 
remarks to King Hussein, it is very symbolic of what can be 
accomplished by people even when they have other disagreements 
of how they can work together.
    The situation involving the basin countries in the Nile 
River, for example, deserves watching and we need to look at 
this very closely because the Nile, of course, flows through 
ten different countries and Egypt is one of the final ones and 
basically Egypt views the Nile as its primary national security 
and economic lifeline. So with so many countries upstream, that 
is an area we have got to look and try to work with these 
powers to make sure that there are again efforts made for 
cooperation, rather than confrontation.
    This subcommittee held a hearing in July of last year on 
the dam controversy between Tajikistan and Uzebekistan and that 
was a controversy that is now at the high level international 
conference of water cooperation which opened up in August. The 
Uzbeks are arguing that the proposed Rogun Dam in Tajikistan 
would cost them some $600 million a year. Since this issue has 
not been resolved, we will continue to monitor it closely but 
that shows you again how significant just an idea of how we are 
going to control the flow of water can be. Six hundred million 
dollars to Uzebekistan means, I would imagine, it has more--
whether their kids are going to get educated, whether they are 
going to have a proper healthcare system in that country is 
being challenged by the fact that water is being controlled.
    One positive story deals with our border relations with 
Mexico. The United States and Mexico in 1944 signed a water 
treaty that has allowed us to resolve most of our border water 
issues relative to the Rio Grande and Colorado River. And let 
me note for the record that I have been--being from California, 
I have studied the--not studied as much as some of our 
witnesses have, I am sure--the history of water between 
California and the other border states and Mexico. And I think 
we have played pretty hardball with the Mexicans on this. And I 
think there have been very legitimate complaints on the part of 
Mexico in the past that the United States was not operating 
with them with the same type of sincerity and the same type of 
respect that we should have been doing to a country that is our 
neighbor that we wanted to maintain a peaceful relationship 
with. The 1944 agreement has gone a long way to try to clear up 
some of those problems that were around for a long time and we 
still have some issues of water that we need to work out with 
Mexico.
    Water is a significant issue and a potential geopolitical 
threat to much of the world. Our witnesses are a distinguished 
group of witnesses today. Jeremy Sharp is a specialist in 
Middle East affairs with the Congressional Research Service. 
Gordon Chang is an author and a lawyer who lived in China for 
many years and has traveled regularly there since. David 
Goodtree at the Symposium for Water Innovation from 
Massachusetts is certainly a guest of our ranking member. We 
are looking forward to his testimony. And like most Americans, 
I have a great admiration for our witness's father, and Maura 
Moynihan's dad was, of course, Senator Daniel Patrick Moynihan 
who my generation of Americans looked up to tremendously. He 
sometimes gave the Reagan White House a few fits and I remember 
those as well, but his opinions were always respected and he 
had a major influence on political thinking in the United 
States. He was, of course, in my way of thinking, he was a 
heroic champion of human rights at the United Nations and as 
well as an Ambassador to India. Ms. Moynihan, of course, was 
with him in India and has done a great deal of work on her own 
in terms of the issue of Tibet and China and we are very happy 
to have her today to share her understanding of maybe the 
threat that we face with China still occupying Tibet after 60 
years.
    So again, with unanimous consent I put the rest of the--
insert into the record a bio of all of our witnesses. So 
ordered without hearing an objection. And I turn to Mr. Keating 
for his opening statement.
    Mr. Keating. Well, thank you, Mr. Chairman, and thank you 
for holding this timely and important hearing. I am also 
pleased that Mr. Blumenauer is able to join us today. Mr. 
Blumenauer and our fellow subcommittee member, Mr. Poe, have 
done an awful lot of work together on global water security, 
both in terms of increasing access to clean water and in 
promoting mitigation of conflicts stemming from water scarcity.
    I would also like to join the chairman in thanking our 
witnesses who are appearing today, particularly Mr. David 
Goodtree. It is a pleasure to see him. Almost as great a 
pleasure to see the cap that he has brought with him and placed 
on the desk of the Boston Red Sox. For those of you on the 
panel and in the room, that is the world champion Boston Red 
Sox and thank you for that thoughtfulness as well. Mr. Goodtree 
is the co-chair and founder of the Symposium on Water 
Innovation in my home state of Massachusetts, an association of 
water technology industry executives focused on bringing clean, 
abundant water to global markets through technology created in 
the Commonwealth of Massachusetts.
    Mr. Chairman, it is clearly in the U.S. interest to work 
and reduce tensions caused by water scarcity and promote access 
to clean water around the entire world. In 2011, the national 
intelligence estimate, the U.S. intelligence community reported 
that over the next 10 years, many countries important to the 
United States will experience water shortages, poor water 
quality, floods, and other water problems that will risk 
instability and even state failure. It will also increase 
tensions between neighbors and distract partners from working 
with the United States on important policy objectives.
    While disagreements over water are inevitable, the good 
news is that the international community has an impressive 
track record of resolving water tensions through negotiation 
and cooperation. In the last 70 years, there have been 37 
reported incidents of water conflicts involving violence. 
During that same period, roughly 300 international water 
agreements were negotiated and signed. Indeed, recent history 
shows that the peaceful resolution of water disputes can be a 
useful diplomatic tool for building trust and cooperation.
    Looking forward, the key will be to find ways to promote 
cooperation between countries in cases where water is or has 
the potential to become a source of tension. Admittedly, this 
is not easy. Most countries view water as a sovereign issue and 
there are many cases where outside intervention is not 
warranted at all. Moreover, water problems are often connected 
to a broader set of political, developmental, and financial 
challenges. In the future, international efforts to increase 
access to clean water and promote sanitation will be just as 
important.
    According to the State Department, nearly 800 million 
people around the world do not have access to clean water. More 
than 1.5 billion still lack access to improved sanitation 
facilities. Each year, more than 4 billion cases of diarrhea 
caused 2.2 million deaths. Most are in children under the age 
of 5. In addition to the lives lost, the total economic losses 
associated with inadequate clean water supply and sanitation is 
estimated at more than $250 billion annually. The scarcity of 
clean water and sanitation disproportionately affects women and 
children. In many countries, women and young girls bear 
responsibility for meeting the water needs of the entire 
family. Collecting water can consume up to 5 hours a day, time 
that could be spent in school or improving their families' 
livelihoods.
    Addressing water problems is a daunting challenge, but the 
international community's successful track record and the 
growth of new and innovative technologies give us even greater 
reason to hope. As such, I am interested in hearing our 
witnesses' views on the effectiveness of U.S. diplomatic and 
development efforts to promote dialogue, capacity building, and 
the development and use of new water technologies, but also 
welcome our witnesses' view on the role that regional 
initiatives could play in promoting cooperation, thereby 
reducing water-related tensions.
    One example is the new Silk Road initiative which aims to 
improve energy and trade linkages between countries in Central 
and South Asia. With that, Mr. Chairman, I will yield back and 
again, thank all of you for being here.
    Mr. Rohrabacher. Thank you very much. Mr. Marino. Colonel 
Cook. And I would welcome remarks from Mr. Blumenauer and 
again, appreciate the leadership that he is showing on this 
issue, not only Republicans and Democrats, trying to get us 
focused on this issue. Your leadership, I think, has inspired 
me and the ranking member to call this hearing today. So thank 
you very much for being with us.
    Mr. Blumenauer. Thank you, Mr. Chairman, and I deeply 
appreciate the courtesy of the subcommittee for being able to 
join you. I guess it is obligatory in a water hearing at some 
point somebody has to quote Mark Twain that ``whiskey was for 
drinking and water is for fighting.'' And your willingness to 
focus on water as an area of conflict, threat to the United 
States and others, is deeply appreciated. As I appreciate the 
support that you and the ranking member have given to the 
latest legislation that Judge Poe and I have introduced, the 
Water for the World Act which, if enacted, would help in some 
way address some of these issues.
    It is too often a hidden issue in foreign policy and the 
detail that you went through, both of you went through a moment 
ago, I think is very important and I wish somehow that it got 
more attention here in Congress. And this subcommittee meeting 
is moving in the right direction.
    The threats go beyond the shared river basin. As my friend, 
ranking member pointed out, in terms of the instability and 
threat by the staggering number of people that still, despite 
intensive efforts over the last 20 years, almost 1 billion with 
safe drinking water, more than 2 billion without access to 
sanitation, and the ripple effects that that can have. And I 
think it is so important to focus on the impact of families in 
these areas. And I do appreciate Mr. Keating talking about the 
fact that this is primarily a burden that falls on women and 
girls in families. There will, today, because of that up to 5 
hours spent globally, 200 million hours will be spent by women 
and girls gathering water and putting by the way often 
themselves at risk as they go from the village.
    The spotlight on China I think is so important and is 
welcome, as well as the--I didn't realize the long history of 
this Red to Dead, but it is an example of where these can be 
positive. What we are seeing in Syria today, the experts tell 
us, is in no small measure a result of sustained drought that 
drove almost 1 million farmers to migrate to urban areas, 
hungry, jobless, and was a flash point for that initial protest 
against the regime as Assad had no interest or ability to deal 
with it.
    Over the next 20 years, we are going to see more urban 
instability due to population increase, disease, poverty, and 
social unrest. We have been working with the United States and 
international partners making some progress, but we risk 
reversing that progress that we have made due to the explosive 
population growth that is going to occur in sprawling urban 
slums which is difficult and expensive to provide sanitation, 
quickly leading to pollution and disease.
    It was exciting yesterday to see our friends in the 
appropriations committee in a difficult budget climate 
responding to the challenge that a number of us have been 
working on with a 20 percent increase to give leverage to the 
State Department. I hope that the hearing will help spotlight 
what we might be able to do with the passage of the Paul Simon 
Water for the World Act which is also moving its way through 
the Senate. Elevate the existing position of the State 
Department to better coordinate diplomatic policy; develop a 
coherent policy framework that will drive our policy in the 
right direction; build the capacity within the
    State Department to handle both the bureau and mission 
level issues and make sure that water sanitation and hygiene is 
reflected in broader development and strategic planning 
documents.
    The leadership of this subcommittee is deeply appreciated. 
It is timely and it is an opportunity for us to take an 
important step to encourage some of the related committees, 
appropriations, defense authorization, as well as foreign 
affairs, to refine our policies and protect our progress.
    As you pointed out in your opening statement, Mr. Chairman, 
it is not only a threat, but it is potentially a solution and I 
look forward to this discussion. Thank you very much.
    Mr. Rohrabacher. I appreciate that opening statement. And I 
also appreciate the mentioning of Senator Paul Simon who worked 
so hard when Mr. Moynihan was known for his work on human 
rights, but Mr. Simon was a person who saw the water issue as 
so significant. I remember when I was a young freshman, a long 
time ago, I got a call from Paul Simon when I mentioned that I 
thought water was an important issue and he took time to call 
me up and talk to me on the phone about how he thought that I 
had some insights that would be useful and be very important to 
follow up on on those insights.
    Mr. Blumenauer. Begging your leave, Mr. Chairman?
    Mr. Rohrabacher. Yes.
    Mr. Blumenauer. And both those gentlemen were charter 
members of the Senate bow tie Caucus.
    Mr. Rohrabacher. All right, with that I would ask the 
witnesses if they could condense their testimony to about 5 
minutes and then we will ask questions. We will have panel 
dialogue and some questions afterwards.
    Mr. Sharp, you may proceed.

STATEMENT OF MR. JEREMY M. SHARP, SPECIALIST IN MIDDLE EASTERN 
    AFFAIRS, FOREIGN AFFAIRS, DEFENSE, AND TRADE DIVISION, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Sharp. Chairman Rohrabacher, Ranking Member Keating, 
and other distinguished members of the committee, thank you for 
inviting CRS here today. I will provide an overview of the so-
called Red-Dead Canal and its potential implications for U.S. 
policy.
    To the surprise of many outside observers, just over a 
month ago, the World Bank Headquarters here in Washington, 
Israeli, the Hashemite Kingdom of Jordon, and the Palestinian 
Authority signed a tri-lateral Memorandum of Understanding, or 
MOU. This MOU outlines a series of water-sharing agreements 
which includes the initial phase construction of what has been 
informally referred to as the Red-Dead Canal. The Red-Dead 
Canal is a decades-old plan to provide fresh water to water-
scarce countries in the surrounding area while simultaneously 
restoring the Dead Sea, which has been shrinking at an alarming 
rate. The original Red-Dead concept was to pump water from the 
Red Sea and desalinate it for use by the participating 
countries. The leftover brine would then be gradually 
channelled to the Dead Sea, helping restore the sea's receding 
water levels.
    Regional environmentalists have long criticized plans to 
restore the Dead Sea using Red Sea water. They warn that the 
transfusion of water from the Red Sea into the Dead Sea could 
have serious ecological consequences that would negatively 
impact both Dead Sea tourism and industry. In 2005, the World 
Bank sponsored what became an 8-year-long feasibility study of 
the Red-Dead Canal concept. Almost a year ago to the day, 
various media outlets reported that construction firms involved 
in the feasibility study had declared that the project was 
technically feasible, although it would come with a steep price 
tag, costing at least $10 billion and take years to construct.
    The Kingdom of Jordan has vigorously pursued the Red-Dead 
Canal concept. Jordan is one of the most water-deprived 
countries in the world and is constantly searching for new 
water resources. The civil war in neighboring Syria is 
exacerbating Jordan's water crisis as over \1/2\ million Syrian 
refugees have fled to Jordan increasing the population by 9 
percent within just 2 years.
    In August 2013, the Jordanian Government announced its 
intent to construct a scaled-down version of the canal entirely 
on Jordanian territory. In terms of scale and cost what the 
Jordanians have announced and agreed on with Israel and the 
Palestinian Authority is far less ambitious than the initial 
Red-Dead concept. Estimates suggest that construction of the 
desalinization plan and pipeline under the new MOU may cost 
between $450 million to $1 billion. However, it is unclear who 
will pay for the new project.
    In essence, under the new MOU, Israel, Jordan, and the 
Palestinian Authority have agreed to a water swap. Half of the 
water pumped from the Red Sea will be desalinated in a plant to 
be constructed in Aquaba, Jordan. Some of this water will then 
be used in southern Jordan. The rest will be sold to Israel for 
use in the Negev Desert. In return, Israel will sell fresh 
water from the Sea of Galilee to northern Jordan and sell the 
Palestinian Authority discounted fresh water produced by 
existing Israeli desalination plants. The other half of the 
water, or the leftover brine, pumped from the Red Sea will be 
channeled to the Dead Sea where its environmental impact will 
be monitored by an international consortium of scientists.
    So what are the implications for U.S. policy and issues for 
Congress? With the Obama administration and Secretary of State 
John Kerry engrossed in seeking an Israeli-Palestinian final 
status agreement, the timing of the MOU could complement 
overall U.S. peace-brokering efforts, though the agreement was 
between the parties themselves with reportedly minimal U.S. 
involvement. According to Silvan Shalom, Israel's Water and 
Energy minister, ``This is a historic agreement that realizes a 
dream of many years. The agreement is of the highest 
diplomatic, economic, environmental, and strategic 
importance.''
    For Jordan, the MOU could be considered a major diplomatic 
achievement. Though the current plan is a scaled-down version 
of the original concept, the Kingdom will receive additional 
fresh water resources at a time of heightened scarcity, owing 
to the Syrian civil war. Nevertheless, as the title of this 
hearing suggests, security and political challenges remain. 
Arab cooperative infrastructure projects with Israel could be 
possible targets for extremist violence as has been the case in 
Egypt, where gas pipelines traversing the Sinai peninsula to 
Israel and Jordan have been repeatedly sabotaged by terrorists.
    In the water-scarce Middle East region, water sharing 
agreements in the absence of a comprehensive Israeli-
Palestinian peace may be considered risky. But there are also 
risks associated with doing nothing. If living conditions in 
Jordan deteriorated further, one could argue that the stability 
of a dependable Arab partner for the United States and reliable 
peace partner for Israel would be jeopardized. It is possible 
that Congress could be asked to consider appropriating funds to 
support the implementation of the Red-Dead Canal. Lawmakers 
could pose the following questions among others. To what extent 
will the project address water needs in Jordan, Israel, and the 
West Bank? What are the security risks and costs? Is the cost 
of the project on target? How will scientists monitor the 
environmental impact? And is the project scalable beyond the 
initial construction?
    Thank you. And I look forward to your questions.
    [The prepared statement of Mr. Sharp follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Ms. Moynihan.

       STATEMENT OF MS. MAURA MOYNIHAN, AUTHOR & ACTIVIST

    Ms. Moynihan. Thank you so much. I have prepared a 
PowerPoint. First of all, I want to thank Congressman 
Rohrabacher for your kind remarks about my late father, Senator 
Moynihan, and the distinguished panel. It means a lot. He was, 
of course, a great supporter of the rights of the Tibetan 
people and he took me to Communist China in 1975 during the 
Cultural Revolution when Mao was alive after we had lived in 
India. So I had a unique perspective on the nature of the 
Chinese state. And I have always believed if you really want to 
understand the nature of Communist China, study Tibet. And so I 
will proceed with the PowerPoint.
    Next. This is a NASA astronaut photograph of Tibet. One 
great success of Chinese propaganda is to persuade the world 
that Tibet is insignificant, that it is a lot smaller than it 
is, but it wasn't until the 20th century, the era of armed 
warfare, airplane, and the tank that Tibet could be conquered. 
Even Ghengis Khan failed.
    So here is another NASA astronaut photograph of the Tibetan 
Plateau which is considered the third pole. It is the third 
largest ice mass concentration on planet Earth after the North 
and the South Pole. And in Asian folklore, it is known as the 
western treasure house because it is also one of the world's 
largest suppliers of minerals.
    Next slide. This is a 1920s British map of independent 
Tibet and as you can see in the insert just how large the 
Tibetan Plateau is. Tibetan Plateau is a unique geomorphic 
entity with 46,000 glaciers comprising the world's third 
largest ice mass, but what is significant about this in the age 
of water scarcity is that it is the source of the great rivers 
of Asia, the Yangtze, the Yellow, the Indus, the Ganges, the 
Brahmaputra, the Chenab, the Sutleg, the Salween, and the 
Mekong which flow through 11 nations, nourishing 3 billion 
people from Peshawar to Beijing. They all rise in Tibet. And 
the preservation and the management of Tibet's glaciers and the 
rivers they sustain is one of the greatest challenges facing 
humanity in the 21st century because Asia is the most populist 
nation and industrial development and population growth is 
projected to double within the next 50 years. The combined 
effects of rapid development, decertification, and water 
scarcity has already create cycles of droughts and flood, food 
shortages and pandemics. But what is China doing about this? 
Shrinking glaciers, depleting aquifers.
    I am going to skip over some of this in the interest of 
time, but it will be available. Asia is now facing a very 
serious water crisis. Let us move to--today, all of Asia's 
rivers except one, the Ganges, are controlled at their sources 
by the Chinese Communist party. There are very few 
international agreements that exist for sharing data and 
coordinating usage of these rivers. As developing nations 
manage water supplies as an economic commodity in the age of 
scarcity, water rights and laws must be appraises. However, 
China has refused to engage in any negotiations with the 
downstream riparian nations on the use of Tibet's waters.
    Here is a map which shows where the major rivers come from. 
There is four that come from eastern Tibet and four that come 
from western Tibet from Mount Kailash. Again, the Ganges 
originates just a few kilometers outside of control of the 
Chinese Communist Party.
    Now, most maps will only show U-Tsang Province which is in 
yellow as being Tibet, but in the 1950s and into the early 
1960s, the Chinese partitioned Tibet as it moved from east to 
west. Amdo Province, Kham Province have all been partitioned 
into Quinghai, into Ganze, into all these other provinces, but 
this is historical Tibet, so you can see how large it is. It 
comprises almost one third of Communist China's land mass.
    As you can see, this is another important map. It shows 
China's grip on Asia and the occupation of Tibet gives China an 
enormous strategic and resource advantage. This is a map I got 
next from a Japanese Web site which--next slide, which shows 
the major ethnic regions. And of course, China learned a lesson 
from the collapse of the Soviet Union which my father predicted 
would happen through the forces of ethnicity. China is, in 
fact, a multi-ethnic state. The one star of the Han and the 
four stars of the other groups declares that it is a multi-
ethnic state. And as you can see in yellow that is East 
Turkestan, the Uighur people; Tibet, Inner Mongolia, and 
Manchuria. So there is potential for ethnic conflict also again 
over exploitation of resources.
    There are the three main faces of the Chinese Communist 
occupation of Tibet. Phase 1, 1960s, military invasion. And 
that is when the deforestation, especially of eastern Tibet 
began. Millions upon millions of acres of first-growth forest 
were destroyed at this time which had for many centuries 
functioned also as a barrier to prevent flooding into Southeast 
Asia and Southwest China. Phase 2, the death of Mao, the rise 
of Deng and these are details you can go into later when you 
have more time.
    Now we are into Phase 3 which is mines, dams, and war 
games. In Phase 2, a lot of military roads were built across 
Tibet. I have traveled over Tibet several times. As my friend 
and colleague, Paul Berkowitz said, it is very, very remote and 
you can see that there is no one to stop the Chinese. There 
will be no NATO. There will no NATO troops. There will be no 
U.N. peacekeeping forces. They control the roof of the world. 
And now because of the population transfer of Han Chinese onto 
the Tibetan Plateau, and the military infrastructure that they 
installed, they have been able to now in Phase 3 build 
thousands upon thousands of hydro-electric dams and mines and 
military airstrips and military garrisons.
    In 2000, China launched a vast development project called 
Xi Bu Dai Fa, opening a development of the western regions of 
Xizang and Tibet which together comprise half of Communist 
China's land mass. And to date, at least 131 people inside 
Tibet have self-immolated to protest Chinese Communist assaults 
on their land and culture.
    Could we move to the next? Some images manage to reach the 
Internet, but Time Magazine described the self-immolation in 
Tibet as the most under reported story of 2013. Next phase, 
here is a farmer that has self-immolated. What is one of the 
sources of this conflict? It is not just assaults on Tibetan 
culture and the Buddhist faith, it is the desecration of 
Tibet's ancestral lands.
    Go to the next. Here is a hydro dam on the Sengye Kabab 
which means mouth of the lion. Before these were Chinese 
rivers, Indian rivers, they were Tibetan rivers and there is an 
enormous body of folklore and mythology associated with all 
these rivers. Sengye Kabab means mouth of the lion. This is the 
Indus which flows through India and Pakistan. This is one of 
the many, many--okay, this is one of the most serious sources 
of conflict between Communist China and democratic India which 
is diverting the Yarlung Tsangpo, a Tibetan name, which is the 
Brahmaputra in the north-south water transfer program. The 
Chinese are building a tunnel to divert the waters of the 
Brahmaputra to northern China which has been suffering from 
extreme drought conditions for many, many years. And it is 
through an earthquake-prone zone. There are many complications. 
Chinese scientists have also said they----
    Mr. Rohrabacher. Could you please repeat where you said the 
water is being diverted from where to where?
    Ms. Moynihan. From the bend in the Brahmaputra as it flows 
down into northern India and into Bangladesh. That is where 
they are building this very, very long tunnel project. The 
Chinese are building tunnels so fast, mostly with Canadian 
engineers and I can go to the next. Here is some more of the 
dams. We can go into that more in detail. Here is a dam on the 
Mekong. There are over seven hydro-electric dams on the Mekong 
which is the main source of fresh water for all of Southeast 
Asia.
    Mr. Rohrabacher. Is that actually affecting the amount of 
water that flows into Southeast Asia then?
    Ms. Moynihan. Absolutely. Water flows on the Mekong are 
said to be down 40 to 50 percent and fish stocks have also 
declined dramatically. And I met with several Thai senators who 
were flown by the Chinese Government to northern Tibet to look 
at the dam projects of which they are very proud and the Thai 
senators----
    Mr. Rohrabacher. And that water is going to be used in 
China?
    Ms. Moynihan. Pardon?
    Mr. Rohrabacher. The water then, rather than flowing into 
the Mekong which is a very wide river, now you say the water is 
being diverted from there to and it is staying in China then?
    Ms. Moynihan. Yes. It is being used to create reservoirs 
that mostly serve southern Tibet and southwestern China and to 
create hydro-electric. And in the interest of time we will 
continue. Here is another power station on the Brahmaputra. We 
skipped ahead. That is okay.
    This is a very important map created by my friend, Michael 
Buckley, whose Web site meltdown in Tibet, I encourage 
everybody to visit. This shows some of the hydro dams on the 
Drichu, the Zachu, and the Gyalmo Ngulchu which are the Mekong, 
the Salween and the Yangtze. Just look how many hydro-electric 
dams. There are dams that are 10 to 15 feet high and the 
tallest dam in the world is on the Mekong. The widest dam is at 
Three Gorges on the Yangtze. But you can ese this is creating a 
looming environmental crisis in all of South and Southeast 
Asia.
    Next slide. China has over 300,000 dams. It is the world's 
number one dam builder. You can see most of the concentration 
of dams are in Tibet, the four rivers of eastern Tibet. Tibet 
was always called in the nation's folklore the western treasure 
house because of the mineral, oil, gas, and salt deposits. 
Again, you can study these maps in detail.
    Another important issue is the decline of permafrost in 
Tibet which will release methane gas and the shrinking glaciers 
are also of tremendous concern. If we go to the next, there is 
the map of the melting permafrost.
    Next slide. This is a glacial lake created near the Rongbuk 
glacier on the northern side of Mount Everest in Chinese-
occupied Tibet. In the last 90 years, the glacier's tail has 
lost 90 vertical meters in depth.
    Go to the next slide. This was an exhibit at the Asia 
Society called ``Rivers of Ice'' by the famous American 
mountaineer David Breashears. You can see since the 1930s when 
the top photograph was taken how much ice mass has been lost on 
the north face of Everest. Here are some more images. I 
encourage you to go to the Asia Society Web site. You can see 
more.
    Now why is this one of the most under reported stories in 
the world? China spends so much time attacking the Dalai Lama, 
the distinguished Nobel Peace Prize laureate who has lived for 
almost 55 years in exile in India. What has this done? It 
confused diplomats<greek-l> * (10:51:22) deg., but it subverts 
all discussions of the exploitation of Tibet's resources. My 
dad always said the Chinese have a perverse obsession with the 
Dalai Lama, but it works because it diverts everyone's 
attention to this strange obsession they have and we are not 
talking about what is going on in Tibet--next slide, please--
because Tibet is a war zone.
    In 2012, Chinese Defense Minister Liang Guanglie said,

        ``In the coming 5 years, our military will push forward 
        with preparations for military conflict in every 
        strategic direction. We may be living in peaceful 
        times, but we can never forget war, never send the 
        horses south or put the bayonets and guns away.''

    So the Chinese are not about to engage in any negotiation, 
which you see are possible in the Middle East and other 
conflict zones, about the use of Tibet's waters. There is a map 
next of China's military investment and expansion. Tibet is 
also a strategic launching pad for drones. The Chinese have 
stolen drone technology from American firms and an American 
State Department official went to an air show in southern China 
and was alarmed to see all these drones. And they have 
installed many of these drones in six new military airports 
they have built in southern Tibet. They can reach India. They 
can reach New Delhi in 20 minutes.
    The Chinese Communist Party, however, is facing a crisis of 
legitimacy at home and abroad. My colleague, Gordon Chang, can 
speak to this.
    Next slide.
    Mr. Rohrabacher. We should probably move on to the next 
testimony.
    Ms. Moynihan. This is my last slide. What is the price of 
appeasement? For six decades the People's Republic of China has 
raped and pillaged Tibet without impediment or penalty, but the 
world will pay a high price for ignoring the Chinese Communist 
occupation of Tibet. Ghengis Khan is said to have uttered the 
famous phrase, ``He who controls Tibet, controls the world.'' 
Thank you.
    [The prepared statement of Ms. Moynihan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Chang.

            STATEMENT OF MR. GORDON G. CHANG, AUTHOR

    Mr. Chang. Chairman Rohrabacher, Ranking Member Keating, 
and distinguished members of the committee, thank you very much 
for the opportunity to appear before you today. My testimony 
will focus on how in a very unexpected way China's water 
problems are affecting the United States.
    The People's Republic of China, over the course of decades, 
has mismanaged and misused its lakes, rivers, and streams and 
the resulting fresh water crisis has, in the words of senior 
Beijing leaders created doubt about the future of the Chinese 
state. As a former Chinese water minister has recently said, 
``To fight for every drop of water or die, that is the 
challenge for China.''
    Beijing officials, unfortunately, have been fighting their 
neighbors over water. As Chairman Rohrabacher noted in his 
opening statement, China is the source of river water for more 
countries than any other nation, controlling the headwaters 
needed by almost half of the world's population.
    People's Republic of China has 14 land neighbors, 13 of 
them co-riparians and as Ranking Member Keating has noted there 
are hundreds of water-sharing agreements in the world. China, 
however, is not a party to any of them, even refusing to begin 
negotiations. The Chinese have commandeered Asia's great rivers 
by building on average one large dam a day since 1949. And now 
Beijing is seeking to harness the river resources of a 
neighbor, Burma, for its own benefit.
    Since 2009, China has been building the Myitsone Dam, 
located at the headwaters of the Irrawadday River. It will be 
the first dam on that vital waterway, part of a seven-dam 
cascade, a $20 billion undertaking.
    Myitsone has been called China's attempt to export the 
Three Gorges Dam, and it is more unpopular in Burma than that 
massive project is in China. The country's former military 
government negotiated the deal with China without public 
consultation. So therefore, those who dislike the junta and 
that was the overwhelming majority of people in Burma, dislike 
the dam. The project has also become a symbol of China's 
exploitation of Burma. Now the Burmese junta renamed the 
country Myanmar. In a power-starved nation, about 90 percent of 
the electricity produced by the dam will be exported to 
southern China.
    Now the Burmese believe that Myitsone is unpopular also for 
other reasons. It will displace tens of thousands of the ethnic 
Kachin minority. It will flood historical and cultural sites, 
including what is believed to be the birthplace of Burma. It 
will destroy one of the world's important biodiversity hot 
spots. It will rob the river of crucial sediments that 
therefore threaten the livelihood of downstream rice farms and 
it will sit near a major fault line. It would be hard to design 
a project that would be more unpopular. So it is no surprise 
that in September 2011, President Thein Sein suspended work on 
the dam.
    So why do we care? Well, within days, Beijing found 
somebody to blame. And that somebody is the United States. 
People's Daily, which is the Communist Party's flagship 
publication started the attack by suggesting that the United 
States and other Western countries had pressured the Burmese 
Government to suspend work on the dam. Beijing has a general 
view this anti-China sentiment that was bubbling up in Burma 
not as something that was indigenous, but was something that 
was a conspiracy in the West between our governments and 
certainly between pro-Western NGOs and we were all doing this, 
China believes, to undercut Beijing's national interests.
    Unfortunately, the Chinese have not changed their views 
since then.

        ``Following its opening up, Myanmar has become a main 
        battleground for the world's major powers, and the 
        Myitsone project has become a bargaining chip in the 
        resulting geopolitical struggle.''

This came from People's Daily on September 2, 2013 of last 
year.

        ``Some analyses point out that Western countries, like 
        the United States and Japan, will first have to ruin 
        the Sino-Myanmar relationship in order to expand their 
        influence in Myanmar and demonizing the Myitsone 
        project is an opening.''

    The Chinese have still not figured out that they are 
operating in a new context in Burma. Instead, they see the U.S. 
lurking in the shadows causing it misery. Now, of course, the 
Myitsone project, despite what People's Daily tries to say, is 
not an American issue, but what is important for us though is 
that Beijing's first instinct was to blame the United States 
for its own failings in Burma. That certainly affects us and it 
is a warning that as long as the Communist Party rules China, 
it may not be possible to have good relations with the Chinese 
people.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Chang follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Mr. Goodtree.

    STATEMENT OF MR. DAVID GOODTREE, CO-CHAIR AND FOUNDER, 
                 SYMPOSIUM ON WATER INNOVATION

    Mr. Goodtree. Chairman Rohrabacher, Ranking Member Keating, 
and distinguished members of the committee. Thank you for the 
opportunity to testify before you today on about global water 
security.
    Is the mismatch between fresh water supply and rising 
demand inevitable and eternal? Or can it be brought into better 
balance, thereby reducing a primary reason for water conflict?
    While it is often taken as a given that water supply is 
unchangeable and that per capita demand can only increase, 
neither is true. Today, I would like to share with you an 
example of where both the supply and the demand curves for 
water have been bent. This new approach successfully changes 
the paradigm of water relationships from the historic approach 
of dividing up scarce resources to a new approach which 
achieves water independence, fosters on-going cooperation, and 
enables mutual economic empowerment.
    The solution I am describing is water technology or 
watertech. Watertech is biology, chemistry, physics, mechanical 
engineering and information technology deployed in novel ways 
to increase the supply and manage the demand of water. 
Watertech is a multi-billion dollar industry in my State of 
Massachusetts that serves global markets. I would like to speak 
about how our industry and countries like Israel use watertech 
to increase international security.
    Israel has remarkably changed the supply and demand curves 
of water for itself and for its neighbors. Recognized as the 
world's leading watertech innovator, the modern state of Israel 
was founded in a land of sand and swamp. Famously, Israel made 
the desert bloom through novel water management and the 
creation of drip irrigation. Today, Israel exports carrots to 
Russia because it can do so cheaper and with less resource 
consumption than Russia can itself. But Israel's rapid economic 
growth continued to tax its limited natural water sources, 
while demand from its neighbors for the same water remained a 
serious source of conflict as mentioned by the chairman today 
and my distinguished fellow panelists.
    Israel made the decision to satisfy all its water needs by 
changing the rules of supply and demand through the deployment 
of multiple forms of technology. Today, Israel is the world's 
number one recycling country, reclaiming 75 percent of its 
water. Number two country, Spain, reclaims 17 percent. In 
desalination, 85 percent of Israel's domestic consumption is 
supplied by turning Mediterranean sea water into drinking water 
and I can tell you it tastes great.
    Here is the bonus of this transformation which accrues to 
international relations. Just last month, as ably described 
today, Israel, Jordan, and the Palestinian Authority announced 
an agreement to exchange fresh water, saltwater and desalinated 
water from where it exists or can be built to where it is 
needed. This Red Sea-Dead Sea Canal improves the lives of 
Jordanians, Palestinians and Israelis. There were two key 
enablers, going back 30 years, and more recently the will to 
get it done and the other enabler, watertech. Notably, it was 
arranged by the principals primarily themselves without the 
glare of international mediators, albeit with important project 
finance from the World Bank. Watertech has enabled Israel to 
satisfy its water needs, diminished conflict, and enabled to 
form agreements with its neighbors based on opportunity, not 
just avoiding hardship.
    Here is a second bonus of Israel's success that goes well 
beyond its borders. Israeli companies are now bringing their 
demonstrated expertise around the world, changing the supply-
demand balance globally: Using desalination in California, drip 
irrigation in India and China, smart water network 
installations on four continents. Israeli water technology is 
increasing availability and quality and reducing demand, while 
removing the remote cause of water conflict.
    A particular favorite technology of mine is that the water 
in most bottles of Coca Cola in Europe is purified by an 
Israeli-invented treatment and we know that Coca Cola is 
necessary for global peace.
    In Massachusetts, we bring our state's strength in 
innovation: Our multi-billion dollar watertech industry, 
academic research, and dozens of watertech startups to meet the 
needs of a thirsty world. We believe, in Massachusetts, that 
watertech is both good business and a strategically important 
national export. In the Q and A, I will be happy to identify 
some non-budgetary means that Congress can consider to enable 
water technology in service of global security interests.
    It has been appropriately noted that the American export of 
social media has enabled open communication among oppressed 
people and thereby fosters freedom. In a similar vein, I submit 
today that water technology sustains life by creating clean and 
abundant supply while enabling economic opportunity and 
diffusing one of the most enduring sources of human conflict.
    Distinguished members, let us bend the water curve of 
supply and demand in the interest of peace and prosperity. 
Thank you for your interest.
    [The prepared statement of Mr. Goodtree follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much and thanks to all the 
witnesses today.
    This has been very thought-provoking testimony and it is 
the Chair's intent to have 3 minute questioning of our 
witnesses and then we will have a second round. Votes were 
scheduled in about 15 minutes.
    Ms. Moynihan, could you tell us what impact does China's 
occupation of Tibet and thus the control of this water, how 
does that impact on India and India-China conflict?
    Ms. Moynihan. Well, the north-south water diversion program 
that you had questioned, saw the slide, would be an absolute 
catastrophe for the people of India and Bangladesh because the 
Brahmaputra is one of the main sources of fresh water for 
eastern Indian and for all of Bangladesh. The Chinese, as 
Gordon also noted, refused to engage in any negotiations. They 
refused to sign any treaties for water sharing. India and 
Pakistan have for many years had a treaty on sharing of the 
Indus River. But China won't engage and they continue to 
demonize the Dalai Lama and I forgot to mention over 200 
military incursions into India in 2013 from Tibet.
    Mr. Rohrabacher. And Mr. Goodtree, just to note that in 
Orange County, California, we have one of the most 
sophisticated, technologically sophisticated water companies, 
water commitments, public and private, but we reclaim our water 
and use it nine times before it actually goes into the ocean. 
That type of reclamation, is any of that going on in Jordan or 
any of these other places that we have been talking about?
    Mr. Goodtree. There is water reclamation certainly going on 
throughout the world. It requires an investment, but to your 
point it is reused over and over and over again. So in essence 
it is called new water. Singapore is a particularly excellent 
case that has used reclamation as one of its four taps or 
sources of water to reduce its dependence and separate itself 
from Malaysia in terms of conflict. So yes, reclamation is 
growing significantly. For example, in Spain, Singapore and 
places throughout the world including Southern California.
    Mr. Rohrabacher. Thank you very much. Mr. Keating?
    Mr. Keating. You have covered so much ground. I just want 
to hit on a couple of points.
    Mr. Goodtree, you mentioned that the U.S. can be of 
assistance in non-budgetary ways. I am curious about that and 
also to our panelists, I am concerned, too, two of the 
panelists referenced natural disasters, earthquakes. Can you 
comment on what some of those--the results of those would be. 
So if I could quickly have the answers to those questions.
    Mr. Goodtree. Thank you, Congressman Keating. The U.S. is a 
tough market for new water technology to succeed at home. And 
as a result, we lag behind other nations in attracting water 
technology entrepreneurs and exporting water technology to help 
ameliorate water security crises. Briefly, here are four 
methods that can enhance our ability to use water technology as 
a tool to advance U.S. foreign policy interests.
    First, the overall U.S. partnership with Israel around R&D 
is an enormous benefit to our economy in life sciences, 
information technology and social media, but not yet in water. 
HR 3683, the U.S.-Israel Energy Cooperation Enhancement Act 
expands the existing collaboration in energy R&D to include 
water. The more we can leverage cooperative advances with 
Israel in watertech to correct supply-demand imbalances around 
the globe, the more we can diffuse global conflict. The bill 
was approved last month by a voice vote in the House Energy and 
Commerce Committee and it awaits a floor vote.
    Second, the Clean Water State Revolving Fund, SRF, 
administered by the EPA, has been enormously successful helping 
states to build and maintain water infrastructure. But the loan 
terms discourage the use of technology because penalties are 
assessed for approaches that fail. Without risking the water 
supply, terms can be made less onerous so that states will be 
more likely to choose new approaches that have better results 
versus sticking with inefficient methods. Once proven in the 
U.S., watertech has a better chance of succeeding aborad in 
water conflict hotspots.
    Third, EPA review of new technology is necessary to protect 
public heath and the environment, but often the Agency is 
unable to approve new technology because it does not have 
processes to evaluate them. As a result, the U.S. is often seen 
as a less desirable place to invent or deploy watertech. To 
rectify the situation, EPA evaluative mechanisms can be 
streamlined to keep up with advances that meet our needs at 
home while being promoted abroad.
    Fourth, and finally, the Export-Import Bank is an essential 
credit source for exporting American goods, but watertech is 
not identified as one of its eight key industries and the key 
countries it targets do not correspond closely to where water 
conflict occurs. Congress can engage the Bank to align its 
programs with U.S. foreign policy interests regarding water 
security.
    Mr. Chang. Ranking Member Keating, the Myitsone Dam is just 
upstream from the largest city in Kachin state. There have been 
various estimates about the number of people who would be 
inundated and killed in a dam burst, somewhere to 100,000. I 
don't know if the numbers are reliable, but we do know that, 
for instance, the 2008 earthquake in Sichuan Province was 
undoubtedly caused by the water in reservoir very close to the 
fault line and that was absolutely devastating. So people 
expect the same thing in Burma if the dam is allowed to 
proceed.
    Mr. Rohrabacher. And from the testimony we have just had, 
we see that China is obviously being perhaps reckless in their 
location of these dams, much less reckless in terms of the 
international peace, but also for the safety of the people who 
live near the dams.
    Mr. Marino?
    Mr. Marino. Thank you, Mr. Chairman. Mr. Chang, whereas I 
am not an expert on China, I have studied China most of my 
life, been to China. China is a very wealthy country. It has 
wrapped its arms around capitalism and loves it. Still a 
dictatorship, a brutal country. Constantly violates human 
rights, has no concern for the environment. Possesses one half 
of the U.S. outside debt, spending money all over the world, 
investments we should call them, building its military at an 
unbelievable rate and buying gold up by the boatloads.
    Given all that, it is 1.3 going on 1.4 billion people, the 
Communist Party is still very strong and I think that in my 
lifetime I will not see that change. What do we do, what does 
the United States and its allies do to at least curtail the 
activities of China on a wide variety of bases?
    Mr. Chang. That is a very important question. It goes to 
the core of American foreign policy because right now the 
United States almost doesn't have a China policy. We are 
reacting to the belligerence that we have seen in Beijing over 
the last 2\1/2\ years, especially the last 3 or 4 months. But 
essentially what I think goes to the core of what we should be 
doing is to reassess our policy and approach to China because 
for more than four decades we have tried to engage the Chinese 
and bring them into the international system.
    Mr. Marino. But can we do that alone? I think not. And 
given the fact that the trade that goes on around the world, 
the United States is one of the biggest importers of Chinese 
products. I am at a loss at this point other than total non-
trade with China to have any impact whatsoever and I don't see 
that in the future from the U.S.'s perspective. So what do we 
get down to--let us get down to the nitty-gritty, let us get 
down to the basics as to how do we approach this with China?
    Mr. Chang. I think we need to reassess and understand that 
our fundamental policies just have not been working. On a broad 
array of issues, there are specific things we should be doing 
and I would be more than pleased to work with your staff on 
what I think needs to be done. But certainly, we need to 
reassess things because China is moving in directions that are 
extremely troubling and have not been predicted by the 
architects of America's China policies.
    Mr. Marino. They are like the bully on the elementary 
playground. They are twice as big as everyone else. They really 
do not care and there is no one who can at this point step up 
to them and se them back.
    Mr. Chang. We can do that if we have the will.
    Mr. Rohrabacher. And Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. Again, I 
appreciate your courtesy. I am wondering just taking a page out 
of the conclusion of the chairman's opening remarks, and Mr. 
Marino's appropriate concern about China and what you all have 
said, if there would be an opportunity for the United States to 
focus on water technology and international agreements in South 
Asia that whether it is what we do with the World Bank, it is 
what we do in terms of initiatives through the United Nations, 
through bilateral and multi-lateral efforts that we try and 
focus more aggressive on water solutions, that we could work, 
again globally, on the panoply of threats, not just with 
climate change, but seismic events we have seen throughout the 
region.
    Is there a way that we could just sort of zero in in a 
cooperative way with the partners, if as Ms. Moynihan pointed 
out, if India and Pakistan, for heaven's sakes, can have an 
agreement on the Indus River, is this an area that we could 
deal with the Mekong, that we could promote more cooperation 
and thoughtfulness and let the force of the ideas and about 2 
billion people outside China who depend on this resource to be 
able to build some momentum?
    I welcome comments from any of you in this regard.
    Ms. Moynihan. The problem is that the Chinese refuse to 
discuss Tibet.
    Mr. Blumenauer. I want to be clear. I am not talking about 
China at this point. I am talking about moving with India, with 
Pakistan, with Thailand, with Vietnam to try and develop both 
the--refine the factual elements that you talked about in terms 
of threats and opportunities and build some momentum and some 
understanding in the region and the world stage.
    Mr. Chang. I think the one thing that we can do is 
certainly work with the Association of Southeast Asian Nations, 
ASEAN, because ASEAN has been trying to find issues upon which 
it can cooperate. And this is one issue that affects most of 
them. Of course, the big country outside of ASEAN that is 
affected by these water-sharing issues is India, but it would 
be very easy for ASEAN to form a partnership with India and the 
United States, just as ASEAN has formed what is called ASEAN 
plus three which is ASEAN, China, Japan, and South Korea. So 
there is precedent for ASEAN to do this. It is the organization 
that I think is in place and is perhaps the most willing to 
take up issues of this sort.
    Mr. Blumenauer. Thank you. Thank you very much, Mr. Chair.
    Mr. Rohrabacher. We will continue probably until the vote 
is called which should be within the 15 minutes, so we will 
proceed with a second round of questions. And first of all, we 
have noted here that India and Pakistan have been able to reach 
an agreement. Thank you. India and Pakistan have reached an 
agreement. The Palestinians, and Jordanians and the Israelis--
if we can have countries with that deep a difference and that 
long-term conflict that has existed between these people reach 
agreement, that is a comment, that itself is a comment on the 
challenge we face with China who has been unwilling to reach 
any agreements with any of these countries that we are talking 
about. That is a comment on, I believe, the government and the 
attitude of the ruling clique that runs Beijing.
    About technology--well, first of all, let me ask Mr. Sharp, 
how much water actually--fresh water, will be provided by the 
Dead Sea to Red Sea project in proportion, is it 10 percent of 
the water needs for Jordan and Israel? What are we talking 
about here?
    Mr. Sharp. Mr. Chairman, all the information that I have 
been to glean about this project has been from open sources. 
The actual agreement has not been publicly released just yet. 
In essence, Jordan will be desalinating about 80 million cubic 
meters, using 30 of it in its own country and sending 50 to 
Israel.
    Mr. Rohrabacher. What is that in reference to the entire 
water consumption of Jordan?
    Mr. Sharp. I don't know. I would have to get back to you.
    Mr. Rohrabacher. Are we talking about 5 percent or 1 
percent?
    Mr. Sharp. I don't think it is insignificant, but I don't 
think----
    Mr. Rohrabacher. You can get to me on that. I think it 
would be important for us to know that, if it is a significant 
amount.
    And Mr. Goodtree, in terms of technology development and 
the availability of water, Lockheed Corporation, I believe it 
was, announced several months ago of a breakthrough of water 
desalinization technology. It is a new type of material that 
can serve as part of the membrane in water desalinization 
process. Have you looked at that at all and what impact do you 
think that will have on some of these issues?
    Mr. Goodtree. There is enormous development going on in 
membrane technology which enables higher through-put when the 
water goes through to filter out impurities. There is a number 
of multi-billion dollar companies in my state, Lockheed is not 
one of them so I am not familiar with its research. And in 
particular, one of the most exciting new technologies, there 
are a few of them. One is called forward osmosis which is a 
different form of desalination which is being created in my 
state by a company called Oasis Water. And also nanomaterial 
membranes, a lot of great research and some commercialization 
out of MIT is making a huge difference.
    I would like to just state, if I can comment on Mr. 
Blumenauer's last question which was the idea about neighbors 
around China. It is not about the agreement with the Chinese or 
let us say whatever country is holding on to or hoarding that 
resource, but it is establishing water independence through 
establishment of new sources of water through technology, new 
water, which is whether desalination or recylination or 
lowering demand through technology again such as drip 
irrigation. So it is about establishing, we think, about oil 
independence. This is water independence through independent 
sources and basically break that link between the hoarding 
country and the needy country.
    Mr. Rohrabacher. Yes, if you can, obviously, producing more 
wealth is something that at least from the Chair's perspective 
better than the idea of trying to distribute a lack of wealth.
    Mr. Goodtree. Exactly.
    Mr. Rohrabacher. And let me just note, I am the vice 
chairman of the Science Committee and water is one of my top 
priorities in terms of my own personal priorities as you can 
see in this hearing.
    Mr. Goodtree. Yes.
    Mr. Rohrabacher. Let me just, Mr. Keating, you may proceed.
    Mr. Keating. Well, we are up against a rollcall, but I 
wanted to just give you a chance to comment on one aspect that 
has been touched upon, but it is very important behind this. 
And that is the fact that a lot of these dams that were there, 
they are also sources of energy, the hydro power and with the 
difference in technology available in our production and use of 
energy, could this have an effect, too, in terms of 
independence of these other countries? Because it is not just 
the water purity, it is also a source of power that this 
creates problems and instability in other countries. If you 
would just like to comment on that aspect, the energy aspect of 
this.
    Ms. Moynihan. Well, of course, the hydro dams do produce 
reservoirs and energy and in Chinese-occupied Tibet, most of 
that is going to industrial development. And there is one issue 
I wanted to mention is that China is also rapidly building 
mines at the source of a lot of the rivers so they are creating 
long-term pollution that will go downstream to the other 
riparian nations. And that could be a whole other hearing.
    Mr. Rohrabacher. But that is very relevant, extremely 
relevant in the discussion of water in terms of countries that 
are permitting that type of pollution which then again 
eliminates that as a source for their neighbors and thank you 
for bringing that up. I think it is important.
    Mr. Marino?
    Mr. Marino. Mr. Chang and anyone else who wants to 
enlighten me on this, let us say for example we do--are able to 
convince India and Pakistan and Vietnam and Laos and Burma to 
coalesce and understand the fact that we have to have some 
effect on China in order to resolve this Chinese issue. What 
would we do collectively? Would we say we are not going to 
trade with you any more which I don't think is going to be too 
devastating to China. If you could name one or two facts or 
entities as to what specifically we could do with China?
    Mr. Chang. I think that if you had all of the countries in 
the region including India and the United States have a unified 
stand, maybe China would listen, but I really doubt it. Because 
what we have seen so far on a number of issues, some critical 
to the national security of the United States that we have not 
been able to move the Chinese in better directions. If we can't 
do it on those issues, it is very unlikely that countries in 
the region can do this with respect to China.
    Right now, you have a Chinese political system in distress. 
You have a lot of intense in-fighting at the top and I am not 
so sure that Beijing can maintain good relations with other 
countries including the United States. So at this point, I 
think that basically we have to just sit by and watch
    You have got to remember that the indisagreement between 
India and Pakistan was because India made a decision that it 
wanted peace. China has yet to make that decision. And until it 
does so, there is all sorts of things we can try, but I am sure 
that they will be ineffective.
    Mr. Marino. With my visits there and conversations with 
leaders and people in the government, they are not going to--
those in control are not going to relinquish control. I mean 
they would take--it would take a massive civil war within China 
to make that change, if it could be made which I think it 
cannot. So my position is if and until communism is defeated in 
China, there is no answer to the solution.
    Mr. Chang. I agree.
    Ms. Moynihan. I agree.
    Mr. Rohrabacher. Just a note for my friend that those of us 
who spent a considerable part of our life fighting communism, I 
don't know any of us who predicted that the communist regime in 
Moscow would crumble either. Nobody thought that would happen 
and----
    Ms. Moynihan. Senator Moynihan predicted it in 1979. Left a 
long paper trail.
    Mr. Rohrabacher. Well said, well said. And he was making it 
happen, too. But it was something that many of us, I should 
say, if not most of us would never have predicted. When 
President Reagan launched what I considered to be the strategy 
that won that victory in the Cold War which was helping those 
people who were struggling for freedom, rather than just 
depending on American military might to deter the leaders of 
the Soviet Union, we actually began supporting in a big way the 
Lech Walesas of the world, but also the mujahideen, also the 
contras in Latin American which drained all of the willpower as 
well as the resources from Moscow and I would suggest that 
perhaps a strategy of helping those people in China who are 
struggling for democracy may well be the best strategy and that 
we should put that same kind of emphasis that Reagan put on it 
for breaking down the Soviet Union.
    Mr. Marino. Would the chairman yield for a second?
    Mr. Rohrabacher. I certainly would.
    Mr. Marino. I would like to see that happen, too, but we 
are talking about two different ideologies between the then 
Soviet Union and China, the numbers of people, the numbers of 
uneducated people, the resources available, and the access to 
outside information to the Chinese people which really doesn't 
exist at this point. And given the fact that you had the right 
people at the right time, you had Reagan, you had several 
leaders in Russia, at least leaning in that direction. I see no 
indication of the hierarchy or the military leaders of the 
government leaning in any direction other than to take more 
control over natural resources, minerals, oil, gas, you name 
it, and the land is the primary goal. I yield back. Thank you.
    Mr. Rohrabacher. We will have a long talk about that some 
time. I am actually more optimistic because of my experience 
with Russia and again, just total surprise that we were able to 
achieve that goal in that short a period of time when President 
Reagan put that strategy down.
    Let me just close here with a very--first of all, Mr. 
Keating, would you like closing statement?
    Mr. Keating. I am fine.
    Mr. Rohrabacher. Mr. Marino, would you like a closing 
statement?
    Mr. Marino. I am fine.
    Mr. Rohrabacher. Let me thank the witnesses today. We have 
heard a great deal of information coming at this issue from 
different perspectives and Mr. Goodtree, I certainly 
appreciated, you added a whole new flavor to this and we 
appreciate Mr. Keating inviting you and of course, Mr. Sharp, 
your detailing of the Dead Sea to Red Sea project is 
invaluable. This subcommittee will be going very shortly on a 
trip to Israel and that information will be invaluable to us.
    And as far as Ms. Moynihan and Mr. Chang, you have detailed 
for us and provided us information that I hope that every 
Member of Congress could hear because it really does exemplify 
the horrific challenge that we face with this regime in Beijing 
that is running, bullying its neighbors, running roughshod over 
early concerns like how much water is going to be and even to 
the point that they are, as you point out, Ms. Moynihan, they 
are not only consuming the water and preventing their neighbors 
from having this, it is sort of an act of aggression, but they 
are also polluting the water without remorse. These are things 
that we need to focus on and we need to deal with them in a 
tough way so we can make some progress in this area. But the 
most important thing, the world will be a better place when we 
have water and energy that will uplift all of mankind and these 
challenges with China and elsewhere, we need to make sure that 
we are increasing the supply of water for humankind and the 
availability of clean water to people so they can live healthy 
lives and that so many resources are not sucked out of a system 
to take care of the health of people whose health is being 
dragged down by improper water and by water that is not well.
    I appreciate all of your insights today and this hearing is 
now adjourned.
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
